    POWERED-LOW COST AUTONOMOUS ATTACK SYSTEM
       ADVANCED TECHNOLOGY DEMONSTRATOR

Report No. D-2001-106                          May 7, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
AFRL                  Air Force Research Laboratory
ATD                   Advanced Technology Demonstrator
LOCAAS                Low Cost Autonomous Attack System
P-LOCAAS              Powered-Low Cost Autonomous Attack System
LORISK                Low Cost Anti Armor Submunition Risk Reduction
                      Office of the Inspector General, DoD
Report No. D-2001-106                                                      May 7, 2001
  (Project No. D2001AB-0021)

               Powered-Low Cost Autonomous Attack System
                   Advanced Technology Demonstrator

                               Executive Summary

Introduction. The Air Force Research Laboratory, Munitions Directorate, established
the Powered-Low Cost Autonomous Attack System Advanced Technology
Demonstrator program to demonstrate an affordable, miniature, autonomous, powered
submunition. The submunition was to provide the ability to search, detect, identify,
track, and destroy ground mobile targets in different weather and terrain. The
Advanced Technology Demonstrator program was to demonstrate its technical
feasibility and military utility for suppression of enemy air defense and missile attack
capabilities. On December 15, 1998, a 36-month, $33.2 million cost share other
transaction agreement was awarded to Lockheed Martin Corporation, Vought Systems,
for development of the advanced technology demonstrator.

Objectives. Our audit objectives were to evaluate the Powered-Low Cost Autonomous
Attack System development, operational and system requirements, planned testing for
the program, and the use of the prototype other transaction authority.

Results. The Air Force Research Laboratory planned to continue refining the
P-LOCAAS technology beyond satisfying the system requirements (exit criteria)
identified in the technology transition plan. As a result, the Air Force Research
Laboratory might have spent an additional $24 million in FYs 2002 and 2003 to refine
the system capability although no assessment had been made to support this continued
expenditure.

Summary of Recommendations. We recommend that the Director, Air Force
Research Laboratory, Munitions Directorate, update and coordinate the Powered-Low
Cost Autonomous Attack System Technology Transition Plan with the Air Force
Aeronautical Systems Center and the Air Combat Command to assess the planned
additional development beyond the established exit criteria before obligating any
additional funding to the demonstrator development agreement.

Management Comments. The Chief, Science and Technology Division, Deputy
Assistant Secretary of the Air Force (Science, Technology, and Engineering),
concurred and stated that the Air Force Research Laboratory will update the existing
Technology Transition Plan if an additional $24 million becomes available and will
re-coordinate the Plan. A discussion of the management comments is in the Finding
section of the report, and the complete text of the management comments is in the
Management Comments section.
Table of Contents

Executive Summary                                                             i

Introduction
     Background                                                               1
     Objectives                                                               1

Findings
     Powered-Low Cost Autonomous Attack System Advanced Technology
         Demonstrator Transition Planning                                     2

Appendixes
     A. Audit Process                                                         8
           Scope and Methodology                                              8
           Prior Coverage                                                     9
     B. Use of Other Transaction Agreement                                   10
     C. Report Distribution                                                  11

Management Comments
     Deputy Assistant Secretary of the Air Force (Science, Technology, and
       Engineering)                                                          13
Background
     The Air Force Research Laboratory, Munitions Directorate, established the
     Powered-Low Cost Autonomous Attack System (P-LOCAAS) Advanced
     Technology Demonstrator (ATD) program to demonstrate an affordable,
     miniature, autonomous, powered submunition. The mission of P-LOCAAS was
     to provide the ability to search, detect, identify, track, and destroy ground
     mobile targets in different weather, and terrain conditions. The ATD program
     will demonstrate the technical feasibility and military utility of the P-LOCAAS
     technology for suppression of enemy air defense and missile attack.

     On December 15, 1998, the Air Force Research Laboratory (AFRL) issued a
     36-month other transaction agreement to Lockheed Martin Corporation, Vought
     Systems, to develop the ATD. The other transaction is a firm-fixed-price
     agreement with cost sharing. The total amount of the agreement was
     $32.9 million, with the Air Force funding $15.3 million and Lockheed funding
     $17.7 million. As of September 26, 2000, the agreement had been modified six
     times, increasing the value to $33.2 million, and with increased Air Force cost
     sharing.

     Prototype Other Transaction Authority. The development of the P-LOCAAS
     was acquired under the other transaction authority. In 1989, Congress enacted
     section 2371, title 10, United States Code (10 U.S.C. 2371), which authorized
     the use of other transactions for basic, applied, and advanced research projects.
     The National Defense Authorization Act of FY 1994, section 845, augmented
     the other transaction authority to allow its use for prototype projects directly
     relevant to weapons or weapon systems. That authority waives many of the
     Federal Acquisition Regulation contracting procedures. One of the reasons
     Congress granted the other transaction authority was to obtain research and
     development from nontraditional defense contractors and to pursue commercial
     solutions to defense requirements. Nontraditional contractors can participate as
     the prime contractor or the subcontractor. The prototype other transaction
     authority can only be used for prototype development, while procurement of
     prototype production items requires the use of Federal Acquisition Regulation
     contracting procedures. On December 21, 2000, the Under Secretary of
     Defense for Acquisition, Technology, and Logistics issued other transaction
     authority guidance on the use of the prototype. The authority to use other
     transactions for prototype development has been extended until September 30,
     2004.

Objectives
     Our audit objectives were to evaluate the P-LOCAAS development, operational
     and system requirements, planned testing for the program, and the use of the
     prototype other transaction authority. See Appendix A for a discussion of the
     audit scope and methodology.


                                         1
           Powered-Low Cost Autonomous Attack
           System Advanced Technology
           Demonstrator Transition Planning
           The AFRL plans to continue refining the P-LOCAAS technology beyond
           satisfying the system requirements (exit criteria) identified in the
           technology transition plan. This condition exists because the AFRL had
           not received direction on whether continued development is warranted.
           As a result, the AFRL will spend an additional $24 million in FYs 2002
           and 2003 to refine the system capability although no assessment has been
           made to support this continued expenditure.

The P-LOCAAS Requirements
    The AFRL, Munitions Directorate, developed the P-LOCAAS ATD as a
    potential materiel alternative to meet the Air Combat Command’s Miniaturized
    Munitions Capability mission need. The Air Combat Command developed the
    mission need statement, performed the analysis of alternatives, and will develop
    the Operational Requirements Document for the Miniaturized Munitions
    Capability.

    Mission Need Statement. The mission need statement documents a mission
    need in terms of required capability or operational deficiency. In the
    Miniaturized Munitions Capability mission need statement, September 4, 1997,
    the Air Combat Command identified the need for miniaturized munitions that
    include:

       •   multiple kills per pass;

       •   multiple ordinance carriages;

       •   accurate and precise adverse weather munitions capability;

       •   medium-to-high altitude accuracy of free-fall weapons;

       •   capability against hardened targets;

       •   a munitions package;

       •   increased weapons effectiveness against area targets;

       •   real-time target location and kill capability against small mobile targets;

       •   prevention of susceptibility to camouflage, concealment, and deception;




                                         2
       •   minimization of collateral damage; and

       •   prevention of susceptibility of munitions to countermeasures.

    Current aircraft, ballistic missile, and future aircrafts, such as the F-22, Joint
    Strike Fighter, and Military Spaceplane, will be capable of carrying a limited
    number of existing and planned munitions systems. The development of
    miniaturized munitions will increase the number of munitions that aircraft can
    carry and the number of targets attacked per mission.

    The Miniaturized Munitions Capability mission and objectives include air and
    space superiority; support of surface operations; and the ability to divert,
    disrupt, and destroy enemy capabilities and war-sustaining capability. Targets
    of the Miniaturized Munitions Capability include fixed structures such as
    hardened aircraft shelters, bunkers, power plants, industrial buildings, and naval
    ships in port; and mobile or movable armor and missile sites. The P-LOCAAS
    was identified as a potential materiel alternative capable of satisfying portions of
    the mission need statement.

    Analysis of Alternatives. The analysis of alternatives is an evaluation of the
    advantages and disadvantages of alternatives to satisfy a requirement, including
    the sensitivity of each alternative to possible changes in key assumptions or
    variables. The analysis aids decisionmakers in determining whether an
    alternative offers sufficient benefits. The analysis of alternatives for the
    Miniaturized Munitions Capability included 26 systems, of which 6 were
    compared because they best met the requirements. The P-LOCAAS was one of
    the alternative submunitions in the comparison. The P-LOCAAS ATD will
    demonstrate technologies key to defeating mobile and relocatable targets, which
    are the most challenging targets. The P-LOCAAS could demonstrate
    technology(ies) that will satisfy the requirements of the Operational
    Requirements Document.

    Operational Requirements Document. The Air Combat Command plans to
    develop an Operations Requirements Document by September 2001 to further
    define the mission needs statement, establish performance parameters, and
    document the user’s objectives and minimum acceptable requirements for
    operational performance.

LOCAAS Evolution
    The P-LOCAAS ATD program has evolved from several technology
    development programs awarded and managed by the Defense Advanced
    Research Program Agency; the AFRL, Munitions Directorate; and the Army
    Research Laboratory. Those programs include the Low Cost Autonomous
    Attack Submunition (LOCAAS), LOCAAS Risk Reduction (LORISK), the Anti-
    Materiel Submunition Warhead Technology, and the LOCAAS Engagement and
    Analysis Program and Simulation programs. Prior funding for those programs
    was $67 million.


                                          3
    Low Cost Autonomous Attack Submunition. In September 1990, the Army
    and Air Force began a joint effort of the LOCAAS program with Loral Vought
    Systems. The program included a solid state pulsed Laser Radar seeker, a
    highly maneuverable airframe, and a single explosively formed penetrator
    warhead. The LOCAAS program successfully accomplished proof-of-principle
    type testing for the seeker, airframe, and warhead. The LOCAAS program was
    in development between FYs 1990 to 1994 at a cost of $37.4 million.

    Low Cost Anti Armor Submunition Risk Reduction. In December 1994,
    Loral Vought Systems (now Lockheed Martin Corporation, Vought Systems)
    was awarded the LORISK effort as a follow-on to the joint Army and Air Force
    LOCAAS program. The LORISK program added a multi-mode Anti-Material
    Submunition warhead to the design of the LOCAAS program. The multi-mode
    Anti-Material Submunition warhead was effective against heavy armor, surface-
    to-air missiles and surface-to-surface missiles. The LORISK program was in
    development from FYs 1995 through 1998 at a cost of $13 million.

    Anti-Materiel Submunition Warhead Technology. The Anti-Materiel
    Submunition Warhead Technology Program provided a tactically sized warhead,
    capable of three detonation types from a single warhead, for armored, heavy
    armored, and soft target attack. The warhead projectile types include an
    aerostable slug, a long stretching rod, and divergent spray of explosively formed
    fragments. The warhead and electronics were demonstrated in the Anti-Materiel
    Submunition Warhead Technology program from FY 1994 through FY 1998 at
    a cost of $15 million.

    LOCAAS Engagement and Analysis Program and Simulation. The
    LOCAAS Engagement and Analysis Program and Simulation converted the
    Army LOCAAS mission planner to an Air Force version. The mission
    engagement simulation allowed the study and optimization of LOCAAS target-
    search patterns in various terrain and combat scenarios. The LOCAAS
    Engagement and Analysis Program and Simulation was used during the
    P-LOCAAS program to refine the concept of operations and provide a
    technology base for future LOCAAS mission planning. This effort was
    performed from FYs 1996 through 1998 at a cost of $1.6 million.

P-LOCAAS Development
    Advanced Technology Demonstrator. In December 1998, the AFRL entered
    into a 36-month other transaction agreement with Lockheed Martin Corporation,
    Vought Systems. P-LOCAAS requirements have evolved from the LOCAAS,
    LORISK, and Anti-Materiel Submunition Warhead programs and is a potential
    material alternative for the Miniaturized Munitions Capability mission need
    statement. The mission need statement provides mission and threat analyses that
    address various warfighting needs, objectives, and general capabilities.
    P-LOCAAS is envisioned as a miniature, autonomous, powered munition
    capable of broad area search, identification, and destruction of a range of mobile
    ground targets. Typical targets include theater ballistic-missile launchers, air-
    defense sites, and ground vehicles. This cost share effort, begun in FY 1999
    and is scheduled to end in FY 2002, was valued at $33.2 million.
                                        4
     P-LOCAAS Status. The P-LOCAAS ATD had completed 25-months of its
     36-month development. The development capitalized on the previous 10-year
     development attributed to LOCAAS and the related advanced technology
     program as discussed above. The P-LOCAAS ATD had achieved all major
     milestones to date, including successful completion of 4 of the planned 13 tests.
     Officials from AFRL, Munitions Directorate, and inprocess review reports from
     the contractor identified that the P-LOCAAS development program is on
     schedule and is expected to satisfy all performance requirements in the exit
     criteria as identified in the technology transition plan.

Exit Criteria
     In July 1998, the AFRL, Munitions Directorate, and Aeronautical Systems
     Center developed the technology transition plan for the P-LOCAAS. The
     technology transition plan provides the ATD exit criteria for performance
     parameter measures, quantitative goals, levels of demonstration, affordability,
     producibility, supportability, safety and environmental considerations, data and
     documentation deliverables, technology capability date, and lethality and
     effectiveness assessment. The technology transition plan commits AFRL, the
     developer of the technology; Aeronautical Systems Center, the recipient of the
     technology; and Air Combat Command, the primary user of the technology to
     the expected performance goals for the P-LOCAAS ATD. Based on current
     development efforts, the ATD effort will achieve the goals established in the
     technology transition plan and the established exit criteria.

     Request for Additional Funding. On December 15, 2000, AFRL, Munitions
     Directorate, provided the Office of the Assistant Deputy Secretary of the Air
     Force (Science, Technology, and Engineering) a proposal list for P-LOCAAS
     unfunded priorities with additional development tasks and options totaling
     $24.2 million to continue ATD development during FYs 2002 and 2003. The
     proposal exceeds the current exit criteria for the P-LOCAAS ATD and includes
     baseline tasks and additional options.

     Baseline Tasks Proposal:

        •   Demonstration of warhead functionality in two separate live-fire flight
            tests at a cost of $7.3 million.

        •   Further development and maturation of the Automatic Target Acquisition
            algorithms at a cost of $3.5 million.

        •   Environmental hardening of the Laser Radar Seeker at a cost of
            $3 million.




                                         5
    Priced Options:

       •   Flight-test a guided test vehicle with data capability and no live warhead
           at a cost of $3.1 million.

       •   Validate a tactical turbojet engine wind mill start at a cost of
           $951 thousand.

       •   Flight test a tactically sized vehicle without a warhead at a cost of
           $3 million.

       •   Integrate the Tactical Munitions Dispenser/Smart Munitions Dispenser at
           a cost of $2.2 million.
       •   Perform a study and test of fuel tank aging at a cost $504,000.

       •   Perform a Producibility and Cost As an Independent Variability Study at
           a cost of $630,000.

    The tasks and options listed in the AFRL, Munitions Directorate, proposal were
    in addition to the current P-LOCAAS ATD exit criteria.

Conclusion
    In September 2001, the Air Combat Command plans to complete the operational
    requirements document for the Miniaturized Munitions Capability. The
    P-LOCAAS ATD is developing technologies that should be applicable to
    concepts that will satisfy the requirements set forth in the operational
    requirements document, and ATD development is scheduled for completion in
    December 2001. It is unclear whether continued development of the ATD is
    warranted because the exit criteria in the technology transition plan will be
    satisfied. Before the AFRL, Munitions Directorate, continues the program
    development beyond the exit criteria, it should update and coordinate the
    technology transition plan with the Aeronautical Systems Center and the Air
    Combat Command to determine whether continued development and
    expenditures is warranted.

Recommendation and Management Comments
    We recommend that the Director, Air Force Research Laboratory,
    Munitions Directorate, update and coordinate the Powered-Low Cost
    Autonomous Attack System Technology Transition Plan with the Air Force
    Aeronautical Systems Center and the Air Combat Command to assess the
    planned additional development beyond the established exit criteria before
    obligating any additional funding to the Advanced Technology
    Demonstrator development agreement.



                                         6
Management Comments. The Chief, Science and Technology Division,
Deputy Assistant Secretary of the Air Force (Science, Technology, and
Engineering), concurred and stated that the Air Force Research Laboratory will
update the existing Technology Transition Plan if an additional $24 million
becomes available and will re-coordinate the Plan with the Air Force
Aeronautical Center and the Air Combat Command.




                                   7
Appendix A. Audit Process

Scope and Methodology
    Work Performed. We reviewed the overall management of the P-LOCAAS
    program as awarded under the other transaction authority. We evaluated the
    program to determine the status of the development, what system requirements
    were in place, and the testing achievements. We reviewed the applicable
    criteria for transitioning from an ATD to user procurement.

    We conducted interviews with officials at the Air Force Acquisition Research
    and Technology, and personnel at the Program Manager’s office and the Air
    Combat Command. We examined documentation for the P-LOCAAS program
    including the basic agreement, the proposals, modifications and other
    contracting and project documentation. We did not question the technical merits
    of the proposal. We did not use computer-processed data to perform the audit.

    We performed this program results audit from October 2000 through January
    2001, in accordance with auditing standards issued by the Comptroller General
    of the United States, as implemented by the Inspector General, DoD. We did
    not review the management control program because the audit focus was on the
    technology development program. However, the condition cited in this report,
    continued development beyond the established exit criteria, is a management
    control weakness. The implementation of the recommendation in this report
    will correct this weakness.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD. Further details are available on request.

    DoD-Wide Corporate Level Government Performance and Results Act
    Coverage. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate level goals,
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following goal and subordinate performance goal.

           •   FY 2000 DoD Corporate Level Goal 2: Prepare now for an
               uncertain future by pursuing a focused modernization effort that
               maintains U.S. qualitative superiority in key warfighting capabilities.
               Transform the force by exploiting the Revolution in Military Affairs,
               and reengineer the Department to achieve a 21st century
               infrastructure. (00-DoD-2)

           •   FY 2000 Subordinate Performance Goal 2.4: Meet combat forces’
               needs smarter and faster, with products and services that work better
               and cost less, by improving the efficiency of DoD acquisition
               processes. (00-DoD-2.4)


                                        8
     DoD Functional Area Reform Goals. DoD did not establish performance
     improvement reform objectives and goals for this functional area.

     High-Risk Areas. The General Accounting Office has identified several high-
     risk areas in the DoD. This report provides coverage of the Defense Contract
     Management and the Defense Weapons System Acquisition high-risk areas.
     Although other transactions are not considered to be contracts, we grouped the
     other transactions in this high-risk area because their purpose is similar to
     contracts. Because the P-LOCAAS vehicle is an ATD, this review provided
     coverage in the Defense Weapons System high-risk area because the ATD or the
     emerging technology could transition to defense weapon systems.

Prior Coverage
     During the last 5 years, the General Accounting Office and the Inspector
     General, DoD, issued five reports discussing other transaction agreements.
     There have been no prior audits on P-LOCAAS. Unrestricted General
     Accounting Office reports can be accessed over the Internet at
     https://www.gao.gov. Unrestricted Inspector General, DoD, reports can be
     accessed at https://www.dodig.osd.mil/ audit/reports.


General Accounting Office
     GAO Report No. NSIAD-00-33 (OSD Case No. 1944), “Acquisition Reform,
     DoD’s Guidance on Using Section 845 Agreements Could be Improved,”
     April 7, 2000

     GAO Report No. NSIAD-96-11 (OSD Case No. 1074), “DoD Research,
     Acquiring Research by Nontraditional Means,” March 29, 1996


Inspector General, DoD
     Inspector General, DoD, Report No. D-2000-065, “Costs Charged to Other
     Transactions,” December 27, 1999

     Inspector General, DoD, Report No. 98-191, “Financial and Cost Aspects of
     Other Transactions,” August 24, 1998

     Inspector General, DoD, Report No. 97-114, “Award and Administration of
     Contracts, Grants, and Other Transactions Issued by Defense Advanced
     Research Projects Agency,” March 28, 1997




                                        9
Appendix B. Use of Other Transaction
            Agreement
   In December 1998, Lockheed Martin Corporation, Vought Systems, and the
   AFRL, Munitions Directorate, signed a prototype other transaction agreement
   for the P-LOCAAS. The agreement stated that the principal purpose was for
   the Government to “support and stimulate” the contractor to provide its best
   effort in the development of a prototype. The use of the language “support and
   stimulate” is inappropriate in the development of a prototype.

   In addition, AFRL awarded a fee of $1.7 million to the contractor on the
   P-LOCAAS cost share agreement that was inappropriate. The P-LOCAAS
   other transaction agreement was for $32.9 million, with a Government cost
   share of $15.3 million and a contractor cost share of $17.7 million. Contractors
   are willing to share costs on development efforts because of the potential future
   production contract if the emerging technology is used on military systems.
   Awarding a fee in a cost share prototype agreement is inappropriate because it
   mitigates the cost share contribution by the contractor, and the contractor retains
   all data rights to the development of P-LOCAAS.

   The condition of inappropriate agreement language and awarding fees on cost
   share agreements was noted in previous audit reports with recommendations to
   the Director, Defense Procurement. In response to those recommendations, the
   Under Secretary of Defense for Acquisition, Technology, and Logistics issued
   guidance in the “Other Transaction Guide for Prototype Projects,”
   December 21, 2000. The guidance states that terms such as “support or
   simulate” are not appropriate for prototype projects. The guidance also states
   that, generally, profits or fees should not be permitted on projects that are cost
   shared. We believe that the guidance issued by the Under Secretary of Defense
   for Acquisition, Technology, and Logistics should preclude future use of the
   inappropriate language and the awarding of fees; therefore, we are not making
   any recommendations for the use of other transaction agreements in this report.




                                       10
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Director, Defense Research and Engineering
Director, Defense Procurement

Department of the Air Force
Assistant Secretary of the Air Force (Acquisition)
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Commander, Air Combat Command
Auditor General, Department of the Air Force
Director, Air Force Research Laboratory, Munitions Directorate

Non-Defense Federal Organizations
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         11
Deputy Assistant Secretary of the Air Force
(Science, Technology, and Engineering)
Comments




                    13
Audit Team Members
   The Acquisition Management Directorate, Office of the Assistant Inspector
   General for Auditing, DoD, prepared this report. Personnel of the Office of the
   Inspector, DoD, who contributed to the report are listed below.

      Mary L. Ugone
      Raymond A. Spencer
      Roger H. Florence
      Rudolf Noordhuizen
      Gary B. Dutton
      Trisha L. Staley
      Jacqueline N. Pugh
